No. 19In the

Supreme Court of the United States
BOARD OF REGENTS, THE UNIVERSITY OF TEXAS
SYSTEM AND TISSUEGEN, INC.,
Petitioners,
v.
BOSTON SCIENTIFIC CORPORATION,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
Omar A. Syed
Marc Vockell
Office of General Counsel
of the University of
Texas System
210 West Seventh Street
Austin, Texas 78701

Michael W. Shore
Counsel of Record
A lfonso Garcia Chan
Samuel E. Joyner
Chijioke E. Offor
Jonathan R. Walther
Shore Chan Depumpo LLP
901 Main Street, Suite 3300
Dallas, Texas 75202
(214) 593-9110
mshore@shorechan.com
Counsel for Petitioners

294039

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
The question presented is:
Whether a state’s sovereign right to try its causes
within its borders when there is personal jurisdiction
over the defendant renders unconstitutional a federal
patent venue statute applied to force the state sovereign
to sue the in-state infringer in a federal court located in
another state.

ii
PARTIES TO THE PROCEEDINGS
The parties to this proceeding include petitioners
Board of Regents, The University of Texas System
and TissueGen, Inc. and respondent Boston Scientific
Corporation.

iii
RULE 29.6 STATEMENT
The University of Texas System is a state entity
created by Article VII, Section 10 of the Constitution of
the State of Texas of 1876. UT System is governed by a
board of regents, a constitutional corporation called Board
of Regents, The University of Texas System.
TissueGen, Inc. is a privately held corporation, and
there is no publicly held corporation that owns 10 percent
or more of TissueGen’s stock.

iv
RELATED PROCEEDINGS
United States Court of Appeals for the Federal
Circuit:
Board of Regents, The University of Texas
System and TissueGen, Inc. v. Boston Scientific
Corporation, No. 2018-1700 (Nov. 8, 2019) (order
denying en banc rehearing)
Board of Regents, The University of Texas
System and TissueGen, Inc. v. Boston Scientific
Corporation, No. 2018-1700 (Sept. 5, 2019)
(order affirming transfer of case to Delaware)
United States District Court (W.D. Tex.):
Board of Regents, The University of Texas
System and TissueGen, Inc. v. Boston Scientific
Corporation, No. 1:17-cv-1103 (W.D. Tex. March
12, 2018) (order transferring case to Delaware)

v
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDINGS  . . . . . . . . . . . . . . ii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . .  iii
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL, STATUTORY,
AND REGULATORY PROVISIONS . . . . . . . . . . . . . . . 1
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 4
I.

Legal Background . . . . . . . . . . . . . . . . . . . . . . . . . 4
A. State Patent Enforcement Before
TC Heartland . . . . . . . . . . . . . . . . . . . . . . . . . 4

vi
Table of Contents
Page
B. A State’s Right To Try Its Causes
At Home I f T her e i s Per son a l
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
II. Factual and Procedural Background  . . . . . . . . . 9
REASONS FOR GRANTING THE PETITION . . . . 11
I.

The Federal Circuit’s Decision Directly
Conflicts With A State’s Power To Sue
In Its Borders If There Is Personal
Jurisdiction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
A. T he Federa l Ci rcu it ’s Dec i sion
Ignores State Sovereignty  . . . . . . . . . . . . . 12
B. The Federal Circuit’s Decision Failed
To Analyze Whether A Venue Statute
Can Extinguish A Sovereign Right . . . . . . 14

II. The Question Presented Is Important And
Warrants Immediate Review . . . . . . . . . . . . . . . 16
III. This Case Presents The Ideal Context For
Resolving The Question Presented . . . . . . . . . .  17
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, FILED
SEPTEMBER 5, 2019 . . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF TEXAS, AUSTIN
DIVISION, FILED MARCH 12, 2018 . . . . . . . . . . 32a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
FILED NOVEMBER 8, 2019  . . . . . . . . . . . . . . . . . 37a

viii
TABLE OF CITED AUTHORITIES
Page
CASES
College Sav. Bank v. Fla. Prepaid Postsecondary
Educ. Expense Bd.,
527 U.S. 666 (1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Fed. Mar. Comm’n v. S.C. State Ports Auth.,
535 U.S. 743 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fourco Glass Co. v. Transmirra Prods. Corp.,
353 U.S. 222 (1957) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Georgia v. Pa. R.R. Co.,
324 U.S. 439 (1945) . . . . . . . . . . . . . . . . . . . . . . . passim
Ohio v. Wyandotte Chems. Corp.,
401 U.S. 493 (1971)  . . . . . . . . . . . . . . . . . . . . . . . passim
Pinney Dock & Transp. Co. v. Penn Cent. Corp.,
838 F.2d 1445 (6th Cir. 1988) . . . . . . . . . . . . . . . . . . . . 2
Robertson v. R.R. Labor Bd.,
268 U.S. 619 (1925)  . . . . . . . . . . . . . . . . . . . . . . . passim
The Schooner Exch. v. McFaddon,
11 U.S. 116 (1812) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 15
TC Heartland LLC v.
Kraft Foods Grp. Brands LLC,
137 S. Ct. 1514 (2017)  . . . . . . . . . . . . . . . . . . . . . . 4, 5, 6

ix
Cited Authorities
Page
VE Holding Corp. v. Johnson Gas Appliance Co.,
917 F.2d 1574 (Fed. Cir. 1990)  . . . . . . . . . . . . . . . . . 4, 5
World-Wide Volkswagen Corp. v. Woodson,
444 U.S. 286 (1980) . . . . . . . . . . . . . . . . . . . . . . . passim
STATUTES
Judiciary Act of 1789, ch. 20, 1 Stat. 73 . . . . . . . . . 7, 9, 12
15 U.S.C. § 22  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
28 U.S.C. § 1251  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
28 U.S.C. § 1254 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1400  . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1291  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
28 U.S.C. § 1295 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Tex. Const. art. VII, § 10  . . . . . . . . . . . . . . . . . . . . . . . . 10
U.S. Const. art. III, § 2, cl. 2 . . . . . . . . . . . . . . . . 2, 3, 6, 12

x
Cited Authorities
Page
OTHER AUTHORITIES
Andrew Chung, Schools That Sue: Why More
Universities File Patent Lawsuits, Reuters,
Sept. 15, 2015, https://w w w.reuters.com/
a r ticle /university-pat ents /schools-that sue -why-more -u n iver sit ies -f i le -pat ent lawsuits-idUSL1N11G2C82015091510) . . . . . . . . . . . . 5
Jacob H. Rooksby, University Initiation of
Patent Inf r in gem ent Litigation, 10 J.
Marshall Rev. Intell. Prop. L. 623 (2011) . . . . . . . . . . 4

1
Petitioners Board of Regents, The University of
Texas System (“UT” or “The Board”) and TissueGen, Inc.
(“TissueGen”) respectfully petition for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Federal Circuit.
OPINIONS BELOW
The opinion of the Court of Appeals for the Federal
Circuit (Pet. App. 1a-31a) is published at 936 F.3d 1365.
The opinion of the district court (Board of Regents,
The University of Texas System and TissueGen, Inc. v.
Boston Scientific Corporation, No. 1:17-cv-1103 (W.D.
Tex. March 12, 2018)) is not published but is available at
Pet. App. 32a-36a.
JURISDICTION
The judgment of the Court of Appeals for the Federal
Circuit was entered September 5, 2019. Pet. App. 1a-31a.
This Court has jurisdiction pursuant to 28 U.S.C. § 1254(1).
RELEVANT CONSTITUTIONAL, STATUTORY,
AND REGULATORY PROVISIONS
There are no relevant constitutional, statutory, or
regulatory provisions herein that have not been discussed
in the record below.
INTRODUCTION
“Dual sovereignty is a defining feature of our Nation’s
constitutional blueprint.” Fed. Mar. Comm’n v. S.C.
State Ports Auth., 535 U.S. 743, 751 (2002). Indeed, the

2
Framers “intended that the States retain many essential
attributes of sovereignty, including, in particular, the
sovereign power to try causes in their courts.” WorldWide Volkswagen Corp. v. Woodson, 444 U.S. 286, 293
(1980). “The sovereignty of each State, in turn, implied a
limitation on the sovereignty of all of its sister States—a
limitation express or implicit in both the original scheme
of the Constitution and the Fourteenth Amendment.” Id.
In Article III, Section 2 of the Constitution, the states
affirmatively granted this Court original jurisdiction in
all suits brought by a state sovereign against a sister state
or its citizens. U.S. Const. art. III, § 2, cl. 2 (“Original
Jurisdiction Clause”). As this Court has recognized,
sovereign dignity underlies this grant of original
jurisdiction; sister state sovereigns should not be forced
to cross one another’s borders to seek redress for harms.
Ohio v. Wyandotte Chems. Corp., 401 U.S. 493, 500 (1971).
Neither the Constitution nor any other act of Congress
affirmatively grants any other court jurisdiction over
a state sovereign party. So unless a state sovereign
voluntarily brings an action in the borders of a sister state,
no federal district court inside the sister state can exercise
jurisdiction over the state sovereign plaintiff. Indeed, “[a]
part from specific exceptions created by Congress the
jurisdiction of the district courts is territorial.” Georgia
v. Pa. R.R. Co., 324 U.S. 439, 467 (1945), superseded by
statute as recognized in Pinney Dock & Transp. Co. v.
Penn Cent. Corp., 838 F.2d 1445, 1450 (6th Cir. 1988);
Robertson v. R.R. Labor Bd., 268 U.S. 619, 623, 627 (1925).

3
Thus, in the context of our nation’s dual sovereignty
blueprint and preexisting attributes of sovereignty
retained by the states, World-Wide Volkswagen, 444
U.S. at 293, the Original Jurisdiction Clause proves that
each state sovereign retains its right to try its causes
within its borders if its resident federal courts enjoy
personal jurisdiction over the defendant; a state cannot be
compelled to enter a sister state’s territory to seek redress
for harm. U.S. Const. art. III, § 2, cl. 2; Wyandotte, 401
U.S. 493, 500; Georgia, 324 U.S. at 466-68.
The patent venue statute, 28 U.S.C. § 1400(b), should
not be interpreted to force a state sovereign plaintiff to
bring its patent infringement actions in the borders of a
sister state, particularly if infringement occurred within
the plaintiff state’s borders. Yet, in this case, that is
exactly what happened. On behalf of the State of Texas,
UT sued Boston Scientific in a Texas federal district court
and intended to enforce Texas’s property rights there. But
because Boston Scientific is incorporated in Delaware and
lacks a physical building in Texas, the district court and
the Federal Circuit decided that Texas must enforce its
property rights in Delaware.
Where, as here, a nonresident infringer violates a
state sovereign’s property rights within the sovereign’s
borders, the state sovereign should not be forced to chase
the infringer into a sister state to seek redress. Left alone,
this outcome will be a boon for private wrongdoers, but
it will offend the Constitution and the dignity it extends
to state sovereigns. Accordingly, the Court should grant
the petition.

4
STATEMENT OF THE CASE
I.

Legal Background
A.

State Patent Enforcement Before TC Heartland

Before this Court’s 2017 decision in TC Heartland
LLC v. Kraft Foods Grp. Brands LLC, 137 S. Ct. 1514
(2017), there was no readily apparent need to resolve the
potential conflict between the patent venue statute and a
state sovereign’s right to try its causes within its borders
when there is personal jurisdiction over the defendant.
The reason for this is two-fold. First, before the Federal
Circuit’s 1990 decision in VE Holding Corp. v. Johnson
Gas Appliance Co., 917 F.2d 1574, 1584 (Fed. Cir. 1990),
state-initiated patent infringement lawsuits were rare.1
Second, in VE Holding Corp., the Federal Circuit
interpreted the patent venue statute together with
amendments to the general venue statute to permit
plaintiffs to file suit in any court with personal jurisdiction
over the defendants. 2 For almost the next three decades
after VE Holding in 1990, states were thus permitted
1. See Jacob H. Rooksby, University Initiation of Patent
Infringement Litigation, 10 J. Marshall Rev. Intell. Prop. L. 623,
627 (2011) (“most universities’ patent activity was quite modest
before 1980”).
2. In 1988, Congress added the words “[f]or purposes of venue
under this chapter, a defendant that is a corporation shall be deemed
to reside in any judicial district in which it is subject to personal
jurisdiction at the time the action is commenced” to the general venue
statute. See TC Heartland, 137 S. Ct. at 1519. Because § 1400(b) is
under the same chapter, the Federal Circuit modified the effect of
§ 1400(b) to reconcile it with the general venue statute. See id. at 1520.

5
to try their patent causes within their borders so long
as their chosen court had personal jurisdiction over the
defendant. See TC Heartland, 137 S. Ct. at 1520.
By 2015, two years before this Court’s decision in
TC Heartland, state patent enforcement activities had
become more common, 3 and, based on VE Holding, the law
permitted states to bring suit within their own borders
so long as personal jurisdiction requirements were met.
Then, in 2017, this Court handed down its TC
Heartland opinion, holding that the patent venue statue
alone governs venue in patent cases and that amendments
to the general venue statute cannot be read to permit
venue wherever personal jurisdiction could be found. 4
Instead, this Court held venue is proper in patent cases
only where the defendant is incorporated or maintains
a regular and established place of business. See TC
Heartland, 137 S. Ct. at 1517.
3. Andrew Chung, Schools That Sue: Why More Universities
File Patent Lawsuits, R euters , Sept. 15, 2015, https://w w w.
reuters.com/article/university-patents/schools-that-sue-why-moreuniversities-file-patent-lawsuits-idUSL1N11G2C820150915.
4. This Court held that when Congress amended § 1391(c) in
1988, that amendment should not have affected the interpretation
of “resides” in § 1400(b) because there was not “a relatively clear
indication of its intent in the text of the amended provision.” TC
Heartland, 137 S. Ct. at 1520. As the Court also noted, the 2011
amendment to § 1391(a) further supports this conclusion due to
the “saving clause” that § 1391(a) “does not apply when ‘otherwise
provided by law.’” Id. at 1521. In other words, the Court reiterated
its 1957 holding in Fourco Glass Co. v. Transmirra Prods. Corp.,
353 U.S. 222 (1957), defining “resides” to be synonymous with
“inhabit[s].” TC Heartland, 137 S. Ct. at 1520.

6
TC Heartland involved two private parties, and no
state sovereigns. Id. While the impact of TC Heartland on
non-state plaintiffs was proper and clear, the decision has
brought to the forefront the potential conflict between the
patent venue statute and a state sovereign’s right to try its
causes within its borders when personal jurisdiction over
the defendant is present. Indeed, while the patent venue
statute might set venue in patent cases in a defendant’s
home state, this Court’s precedents show that such
venue provisions should not be interpreted to compel a
state sovereign to litigate its claims in a sister state. See
Georgia, 324 U.S. at 465-68.
B. A State’s Right To Try Its Causes At Home If
There is Personal Jurisdiction
A state sovereign’s right to try its causes within
its borders so long as personal jurisdiction is present
predates the Constitution. As this Court recognized in
World-Wide Volkswagen, 444 U.S. at 293, the Framers
intended that “the States retain many essential attributes
of sovereignty, including, . . . the sovereign [right] to try
causes in their courts.” Further, the Original Jurisdiction
Clause, U.S. Const. art III, § 2, cl. 2, states that in “all
Cases . . . which a State shall be party, the supreme Court
shall have original jurisdiction.”
This express grant of jurisdiction gives state
sovereign plaintiffs a proper tribunal to try disputes, since
“parochial factors” in other states’ courts “might often
lead to the appearance, if not the reality, of partiality to
one’s own” local interests in the dispute. Wyandotte, 401
U.S. at 500. Of course, states need only resort to this Court
when no federal district court within a state’s boundaries

7
has requisite personal or territorial jurisdiction over a
defendant.
The sovereign right at issue here has been enshrined
in law since the Constitution was ratified. The Judiciary
Act of 1789, 1 Stat. 73, 80 (1789), long considered weighty
evidence of the Framers’ original intent, granted this
Court original jurisdiction over all suits brought by a state
sovereign against a sister state or its citizens. 5 This grant
of original jurisdiction is codified in 28 U.S.C. § 1251. 6 No
other court enjoys this affirmative jurisdictional grant.
This Court’s precedents in Wyandotte, Georgia,
and Robertson further strongly support the existence,
necessity, and power of the right at issue today. In
Wyandotte, this Court expressly recognized that the
primary principle underlying the Original Jurisdiction
Clause is “[t]he belief that no State should be compelled
to resort to the tribunals of other States for redress.” 401
U.S. at 500. This Court also observed that in instances
where personal jurisdiction might be lacking, “a State,
needing an alternative forum, of necessity had to resort
5. In relevant part, the Judiciary Act of 1789 provided “the
supreme court shall have exclusive jurisdiction of controversies of a
civil nature where a state is a party, except between a state and its
citizens, and except also between a state and citizens of other states
or aliens, in which latter case it shall have original but not exclusive
jurisdiction.” 1 Stat. 73, 80 (1789).
6. In relevant part, 28 U.S.C. § 1251 provides “(a) The
Supreme Court shall have original and exclusive jurisdiction of all
controversies between two or more States” . . . “(b) The Supreme
Court shall have original but not exclusive jurisdiction of . . . (3) [a]
ll actions or proceedings by a State against the citizens of another
State or against aliens.” 28 U.S.C. § 1251.

8
to this [Supreme] Court in order to obtain a tribunal
competent to exercise jurisdiction over the acts of
nonresidents of the aggrieved State.” Id. This necessity
exists so state sovereigns are not forced to cross into each
other’s territories to redress harm. See id.
Further, in Georgia, 324 U.S. at 466-68, this Court
demonstrated that it would not compel a state sovereign
plaintiff to enter a sister state’s territory to seek
redress for harm caused by the sister state’s citizens.
Under the controlling antitrust venue statute, 15 U.S.C.
§ 22, Georgia could sue each railroad defendant only
where it is an “inhabitant” or where “it may be found or
transacts business.” Georgia, 324 U.S. at 466. But most
of the defendants were not citizens of Georgia or within
the jurisdiction of Georgia’s courts so it was unclear
whether Georgia had personal jurisdiction over all of the
defendants. Id. And even if the case proceeded in Georgia
district court against some defendants, that court would
have no power over out of state parties because “the
jurisdiction of the district courts is territorial.” Id. at
466-67.
On these facts, the Court concluded Georgia did not
have a proper and adequate forum outside of the Supreme
Court, which had both subject matter jurisdiction and
nationwide territorial jurisdiction over all parties. See
id. at 467-68. By exercising its original jurisdiction over
Georgia’s case, the Supreme Court made clear that the
antitrust venue statute did not dictate where state party
antitrust suits must be heard.
Moreover, this Court’s opinions in Georgia and
Robertson make plain that the federal district courts

9
are courts of limited territorial jurisdiction defined by
the boundaries of the states in which they sit. Georgia,
324 U.S. at 467 (“Apart from specific exceptions created
by Congress the jurisdiction of the district courts is
territorial.”); Robertson, 268 U.S. at 623. Thus, filing a suit
in Texas district court does not give a Delaware district
court territorial jurisdiction over the parties to the Texas
district court suit.
This Court has further emphasized it is impossible
to “accept[] the proposition that state lines are irrelevant
for jurisdictional purposes” while “remain[ing] faithful
to the principles of interstate federalism embodied in the
Constitution.” World-Wide Volkswagen, 444 U.S. at 293.
And as Chief Justice Marshall recognized in The Schooner
Exch. v. McFaddon, these territorial limitations are
particularly potent and unique with respect to sovereigns.
11 U.S. 116, 137 (1812) (concluding a sovereign is “bound
by obligations of the highest character not to degrade the
dignity of his [state], by placing himself or its sovereign
rights within the jurisdiction of another [sovereign]”).
The Original Jurisdiction Clause, the Judiciary Act
of 1789, and this Court’s precedents establish a state
sovereign’s right to try its causes within its borders if
personal jurisdiction is present and not to be forced to
litigate in a sister state’s borders. This is a right retained
by all state sovereigns and is necessary to the functioning
of our dual sovereignty system.
II. Factual and Procedural Background
The University of Texas System (“UT System”)
was created by the Texas Constitution of 1876 “for the

10
promotion of literature, and the arts and sciences.” Tex.
Const. art. VII, § 10. The Board is the governing body
of UT System, an arm of the State of Texas. UT sued
Boston Scientific on November 20, 2017 for infringing
U.S. Patent Nos. 6,596,296 and 7,033,603 (the “Patents-InSuit”), which relate to novel drug-releasing biodegradable
polymer fibers.7
It is undisputed that that the federal court in the
Western District of Texas had requisite territorial
jurisdiction over the parties. See id. at 2a-3a. However,
Boston Scientific moved to dismiss for improper venue
or alternatively to transfer the case to the District of
Delaware, where it is incorporated. See id. at 4a. Relying
solely on § 1400(b), the district court held that “venue was
improper . . . as there was no dispute that Boston Scientific
. . . does not reside in the [Western District of Texas].”
Id. at 4a. Accordingly, the district court transferred the
case to the District of Delaware, despite that court lacking
territorial jurisdiction over UT. See id. at 4a-5a.
UT immediately appealed the district court’s transfer
to the Federal Circuit pursuant to 28 U.S.C. §§ 1291 and
1295 and the collateral order doctrine, because, as an arm
of the State of Texas, UT has the sovereign right to try
its causes in its borders where, as here, there is personal
jurisdiction over Boston Scientific. See id. at 4a-5a. The
Federal Circuit agreed the collateral order doctrine
applied, but found no applicable sovereign right existed
7. The Board is the assignee and exclusive owner of the
Patents-In-Suit, which resulted from UT System’s constitutionally
mandated research and development efforts. TissueGen is the
exclusive licensee of the Patents-In-Suit. See Pet. App. 2a-3a.

11
and thus affirmed the district court’s transfer. See id. at
14a, 31a.
To support its conclusion that UT lacked the right to
sue within its borders, the Federal Circuit relied primarily
on a separate and distinct sovereign right—sovereign
immunity. See Pet. App. 16a-21a, 25a-31a. However, as
Petitioners’ briefing made clear, “this case is not about
Eleventh Amendment immunity.” Id. at 17a. Rather, it
concerns a state’s right to try its causes at home when
personal jurisdiction over the defendant is present. The
Federal Circuit did not squarely address this issue,
spending only a few pages on the Original Jurisdiction
Clause. See id. at 21a-25a.
Indeed, according to the Federal Circuit, Wyandotte
“discuss[es] the principles underlying original jurisdiction
and did not even consider whether original jurisdiction
confers on states the right to bring suit in an improper
venue.” Id. at 20a. But its discussion of Wyandotte with
respect to Petitioners’ argument is misguided. Petitioners
do not argue Wyandotte “confers” any right at all;
rather, Wyandotte evidences a long-standing right that
is evidenced in the Constitution.
UT timely filed a petition for en banc review on
October 7, 2019, and the Federal Circuit denied it on
November 8, 2019. See Pet. App. 37a-38a.
REASONS FOR GRANTING THE PETITION
Petitioners are unaware of any occasion where
this Court has been asked to grant certiorari in a case
involving the potential conflict between the patent venue

12
statute, 28 U.S.C. § 1400(b), and a state sovereign’s right
to try its causes within its borders when there is personal
jurisdiction over the defendant infringer.
Thus, this issue is a novel issue of first impression
for this Court. Further, the Federal Circuit’s decision
below directly conflicts with at least the Constitution,
the Judiciary Act of 1789, and this Court’s precedents.
Additionally, the Federal Circuit itself recognized that
“the state sovereignty issues raised here are [such]
‘important issue[s],’” so as to justify review under the
collateral order doctrine. Pet. App. 11a.
Finally, this case involves a suit to enforce a state’s
property rights, initiated in a forum within the state’s
borders having personal jurisdiction over the infringing
actor. As such, it presents an appropriate vehicle upon
which to resolve the existing conflict.
I.

The Federal Circuit’s Decision Directly Conflicts
With A State’s Power To Sue In Its Borders If There
Is Personal Jurisdiction.
A.

The Federal Circuit’s Decision Ignores State
Sovereignty.

In the context of our country’s dual sovereignty
framework, the Original Jurisdiction Clause preserves
each state sovereign’s right to try its causes within its
borders when there is personal jurisdiction over the
defendant, and protects it from being compelled to enter
a sister state to seek redress for harm. U.S. Const. art.
III, § 2, cl. 2; World-Wide Volkswagen, 444 U.S. at 293.

13
Additionally, this Court’s precedents in at least
Wyandotte, Georgia, and Robertson stand for three
critical propositions. First, a sovereign enjoys the right to
try its causes at home where there is personal jurisdiction
over the defendant, and not to be forced into a sister state.
See Wyandotte, 401 U.S. at 500. Second, even if personal
jurisdiction does not exist, a state sovereign plaintiff
cannot, and should not, be forced to litigate in a sister
state, regardless of where venue provisions might suggest
litigation should occur. Georgia, 324 U.S. at 466-68. Third,
the jurisdiction of federal district courts is limited and in
particular—territorial. Id. at 467; Robertson, 268 U.S. at
623, 627.
Private parties should not be granted the right to
force a sovereign state plaintiff to submit to the territorial
jurisdiction of courts sitting in a sister state. That result
dilutes sovereignty, compelling a sovereign whose patent
rights cover the entire United States to chase multiple
infringers into parochial venues across the country.
Congress can certainly decide to disadvantage private
patentees seeking to enforce their rights, but it cannot
do the same for sovereigns who have a pre-existing, overarching Constitutional guarantee against such dilutions
of sovereign dignity.
A sovereign’s choice of forum within its boundaries
still must be accompanied by the requisite personal
jurisdiction over the defendant, and yet, the Federal
Circuit deemed this factor irrelevant. In other words,
although the nonresident defendant purposefully availed
itself of the protections of the sovereign’s laws by
committing acts of infringement within the sovereign’s
boundaries, the Federal Circuit held a mere venue statute

14
to upend this bargain. The venue statute, however, is not
the problem. The problem is the destruction of a sovereign
right that pre-dates the Constitution.
B. The Federal Circuit’s Decision Failed To
Analyze Whether A Venue Statute Can
Extinguish A Sovereign Right.
Because the Federal Circuit declined to recognize
a state sovereign’s right to try its causes at home where
there is personal jurisdiction over the defendant, it
never considered whether the patent venue statute could
extinguish such a right.
Had the Federal Circuit considered the issue, it would
have concluded that the patent venue statute gives way
to the state sovereign right. This Court can clarify that
principle, just as it clarified a related principle in Georgia
which allowed a state-filed case against nonresident
defendants to proceed although the forum arguably
did not satisfy the applicable anti-trust venue statute.
A venue statute should not override a state sovereign
right, particularly where, as here, there is no indication,
explicitly or implicitly, that Congress ever attempted
to abrogate the sovereign right. Section 1400(b) in no
way grants jurisdiction over a party as it only relates to
the defendant. Therefore, there is nothing granting the
District of Delaware jurisdiction over Petitioners in this
case.
The Federal Circuit stated that “ it would be
‘anomalous or inconsistent’ for UT to both invoke federal
question jurisdiction [i.e., subject-matter jurisdiction] and
then to assert sovereignty to defeat federal jurisdiction.”

15
Pet. App. 26a. Thus, the Federal Circuit appears to hold
that when a sovereign sues a nonresident defendant in
any federal district court, every federal district court
suddenly has “federal jurisdiction” over the sovereign
merely because subject-matter jurisdiction was invoked.
This is wrong and must be corrected by this Court.
Taken to its logical conclusion, this reasoning would
render concepts of territorial jurisdiction irrelevant
even when the plaintiff is a sovereign. As Chief Justice
Marshall observed, a sovereign is “in no respect amenable
to another [sovereign]; and [is] bound by obligations of
the highest character not to degrade the dignity of his
nation, by placing himself or its sovereign rights within
the jurisdiction of another [sovereign].” McFaddon, 11
U.S. at 137. Thus, territorial jurisdiction with respect to
state sovereigns is not so easily satisfied, and certainly
not satisfied merely by invoking separate and distinct
subject-matter jurisdiction. 8
8. The Federal Circuit’s decision is also inconsistent with
College Sav. Bank v. Fla. Prepaid Postsecondary Educ. Expense
Bd., 527 U.S. 666 (1999), as a sovereign cannot be forced to give up
its sovereign status to take part in commercial activities. There,
Florida sought to engage in activity that the government argued
would subject Florida to suit. See 527 U.S. at 671. However, this
Court rejected the government’s position that Florida could be sued
because when commercial activity is involved, participating in such
activity is not an “altogether voluntary” waiver of a sovereign right.
See id. at 681, 687. College Savings Bank means Congress cannot
force a state, as a condition of the state’s participation in the lawful
activities of obtaining and enforcing United States patents for state
inventions, to give up its rights as a sovereign to try its causes in its
borders where personal jurisdiction over the defendant is present.
Such a forced waiver is coercive and violates state sovereignty. See
id. at 687.

16
It is clear then that § 1400(b) cannot grant a federal
district court within a state such as Delaware territorial
jurisdiction over a state sovereign such as Texas. Thus,
§ 1400(b) becomes unconstitutional when applied to
effectuate this result, as it violates a sovereign’s right to
try its causes at home when personal jurisdiction over the
defendant exists.
This outcome does not have destabilizing implications;
it merely allows those (states) with sovereign rights—
and only those with sovereign rights—to maintain their
dignity. This outcome also does not offend fairness to a
particular defendant, as personal jurisdiction must still
be satisfied. Thus, its practical effect is merely to allow a
suit to go forward inside the boundaries of the sovereign
plaintiff’s state if there is personal jurisdiction over the
defendant.
II. The Question Presented Is Important And Warrants
Immediate Review.
The importance of this question cannot be denied
as the Federal Circuit itself confirmed. Pet. App. 11a.
Simply put, this case determines whether a centuriesold sovereign right—a sovereign’s right to try its causes
at home when there is personal jurisdiction over the
defendant—still exists today; and if so, whether a venue
statute can extinguish that right.
Moreover, the life of a patent is finite. State sovereigns
cannot merely wait until a court later in time recognizes
this right and finally allows them to maintain their dignity
in addressing infringing acts within their own borders. By
that time, the infringing acts may no longer be actionable,
and the property may no longer have value.

17
The implications of postponing review for UT
System—and by extension, all public state universities
in the nation—are scientific and economic: while the
federal government and respective state constitutions
urge and oftentimes demand innovation and research,
the universities lose their financial opportunity to
accomplish those aims. In large part, private corporations
patent technology with the sole intent of profiting. State
sovereigns and their universities, on the other hand,
pursue scientific innovation to fulfill their duties to their
states and to the nation. If their patent enforcement
mechanisms are impaired, these engines of innovation will
sputter as private actors enjoy royalty-free infringement.
III. This Case Presents The Ideal Context For Resolving
The Question Presented.
This case is arguably the perfect vehicle for resolving
the question presented. There is no question that 1) the
Western District of Texas has personal jurisdiction over
Boston Scientific, 2) UT has the same sovereign rights as
the State of Texas, and 3) appeal is immediately proper
from the transfer order because sovereignty is at issue.
Thus, the issue at this stage is naturally simplified—does
a state sovereign’s right to try its causes at home when
there is personal jurisdiction over the defendant still
exist? The second part of the question presented, the
unconstitutionality of 28 U.S.C. § 1400(b) if applied to force
a state sovereign to sue in a sister state, is a necessary and
logical implication of a sovereign’s right to try its causes
within its own borders if personal jurisdiction exists.
Fur ther, the Federal Ci rcuit has essentially
extinguished these sovereign rights in the patent context.

18
Thus, even if the Federal Circuit’s ultimate conclusion is
correct—a question for this Court to decide—it should
not rest on the unrelated ground of sovereign immunity.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
March 6, 2020

Respectfully submitted,

Omar A. Syed
Marc Vockell
Office of General Counsel
of the University of
Texas System
210 West Seventh Street
Austin, Texas 78701

Michael W. Shore
Counsel of Record
A lfonso Garcia Chan
Samuel E. Joyner
Chijioke E. Offor
Jonathan R. Walther
Shore Chan Depumpo LLP
901 Main Street, Suite 3300
Dallas, Texas 75202
(214) 593-9110
mshore@shorechan.com
Counsel for Petitioners

APPENDIX

1a
APPENDIX A — Appendix
OPINIONAOF THE UNITED
STATES COURT OF APPEALS FOR THE
FEDERAL CIRCUIT, FILED SEPTEMBER 5, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
September 5, 2019, Decided
2018-1700
BOARD OF REGENTS OF THE UNIVERSITY OF
TEXAS SYSTEM, TISSUEGEN, INC.,
Plaintiffs-Appellants,
v.
BOSTON SCIENTIFIC CORPORATION,
Defendant-Appellee.
Appeal from the United States District Court
for the Western District of Texas
in No. 1:17-cv-01103-LY, Judge Lee Yeakel.
Before Prost, Chief Judge, Reyna and Stoll, Circuit
Judges.
Stoll, Circuit Judge.
The Board of Regents of the University of Texas
System (UT) and TissueGen Inc. sued Boston Scientific

2a
Appendix A
Corporation (BSC) for patent infringement in the Western
District of Texas. The district court determined that venue
was improper and transferred the case to the District of
Delaware. UT, acting as an arm of the State of Texas,
appeals the district court’s transfer order on several
grounds relating to its rights as a sovereign entity.
We hold that, as a threshold matter, we have
jurisdiction to hear this appeal under the collateral
order doctrine. On the merits, we conclude that the state
sovereignty principles asserted by UT do not grant it the
right to bring suit in an otherwise improper venue. We
affirm.
BACKGROUND
The Board of Regents is the governing body for
the University of Texas System, which includes eight
universities and six health institutions. The Board’s nine
regents are appointed by the Governor of Texas and
confirmed by the Texas Senate, and its authority to govern
the University of Texas System is delegated to it by the
Texas Legislature. It is undisputed that UT is an arm of
the State of Texas.
UT is the assignee and exclusive owner of patents
resulting from research conducted at the University of
Texas System. Its portfolio includes U.S. Patent Nos.
6,596,296 and 7,033,603 (the “patents-in-suit”), which are
directed to implantable drug-releasing biodegradable
fibers. Dr. Kevin Nelson, co-inventor of the patents-insuit, developed the claimed technology at the University

3a
Appendix A
of Texas at Arlington and founded TissueGen Inc. as a
vehicle for commercializing his inventions. UT exclusively
licensed the patents-in-suit to TissueGen, which then
commercialized its ELUTE® fiber product. According
to UT, ELUTE® fiber is intended to replace standard
fibers in medical devices like implantable stents, and it is
capable of delivering therapeutic agents directly to the
site of implantation.
In November 2017, UT and TissueGen sued BSC for
patent infringement in the Western District of Texas.
See Compl., Bd. of Regents, the Univ. of Tex. Sys. v.
Boston Sci. Corp., No. 1:17-cv-1103 (W.D. Tex. Nov. 20,
2017), ECF No. 1. UT alleged that several BSC stent
products infringed the patents-in-suit. In its complaint,
UT conceded that BSC is a Delaware corporation with a
principal place of business in Massachusetts. It asserted
that “[v]enue is proper in the Western District of Texas
because UT has sovereign immunity and this Court has
personal jurisdiction over [BSC].” Id. ¶ 7. Relying on state
sovereignty as its hook for venue, UT explained:
Venue is proper in the Western District of Texas
because UT is an arm of the State of Texas, has
the same sovereign immunity as the State of
Texas, it would offend the dignity of the State to
require it to pursue persons who have harmed
the State outside the territory of Texas, and the
State of Texas cannot be compelled to respond
to any counterclaims, whether compulsory or
not, outside its territory due to the Eleventh
Amendment.

4a
Appendix A
Id. ¶ 10. UT further emphasized that it did not waive its
sovereign immunity and did not “consent[] to any suit or
proceeding filed separate from this action.” Id. ¶ 2.
BSC filed a motion to dismiss under Federal Rule
of Civil Procedure 12(b)(3) for improper venue. It
requested that the case be dismissed or, in the alternative,
transferred to the District of Delaware. BSC noted
that it does not own or lease any property or maintain a
business address in the Western District of Texas. BSC
disclosed that it has approximately forty-six employees in
the Western District of Texas, all of whom maintain home
offices and do not work in spaces that are owned, leased,
or controlled by BSC.
The district court g ranted BSC’s motion and
transferred the case to the District of Delaware. See Bd.
of Regents, the Univ. of Tex. Sys. v. Boston Sci. Corp.,
No. 1:17-cv-1103 (W.D. Tex. Mar. 12, 2018), ECF No. 27
(“Order”). It explained that “28 U.S.C. § 1400(b)[] is the
‘sole and exclusive provision controlling venue in patent
infringement actions,’” and that venue is proper under
this section where a defendant resides or has a regular
and established place of business. Id. at 2 (quoting TC
Heartland LLC v. Kraft Foods Grp. Brands LLC, 137
S. Ct. 1514, 1519, 197 L. Ed. 2d 816 (2017)). Applying this
court’s decision in In re Cray Inc., 871 F.3d 1355 (Fed.
Cir. 2017), the district court found that BSC “does not
maintain a ‘regular and established place of business’
in the Western District of Texas.” Id. It rejected UT’s
sovereign immunity arguments, explaining that “[s]
overeign immunity is a shield; it is not meant to be used

5a
Appendix A
as a sword . . . There is no claim or counterclaim against
The Board of Regents that places it in the position of a
defendant.” Id. at 3 (citing Regents of the Univ. of Cal.
v. Eli Lilly & Co., 119 F.3d 1559, 1565 (Fed. Cir. 1997)).
The district court held that venue was improper under
§ 1400(b), as there was no dispute that BSC, a Delaware
corporation, does not reside in the district. Accordingly, it
transferred the case to the District of Delaware pursuant
to 28 U.S.C. § 1406. Id. at 3-4. UT appeals the district
court’s transfer order.
Discussion
I
We first address whether we have appellate jurisdiction
over UT’s appeal. Transfer orders are interlocutory and
generally cannot be appealed immediately. We conclude,
however, that we have jurisdiction here. Because UT
challenges the district court’s transfer order based on
state sovereignty, we hold that this case falls within the
small class of orders excepted from the final judgment
rule by the collateral order doctrine.
Section 1295(a)(1) of Title 28 grants this court
jurisdiction over any “appeal from a final decision of a
district court of the United States . . . in any civil action
arising under . . . any Act of Congress relating to patents.”
Under the final judgment rule, a party may not appeal
“until there has been a decision by the district court that
ends the litigation on the merits and leaves nothing for
the court to do but execute the judgment.” Robert Bosch,

6a
Appendix A
LLC v. Pylon Mfg. Corp., 719 F.3d 1305, 1308 (Fed. Cir.
2013) (en banc) (quoting Firestone Tire & Rubber Co. v.
Risjord, 449 U.S. 368, 373, 101 S. Ct. 669, 66 L. Ed. 2d 571
(1981)). “Appeal is thereby precluded ‘from any decision
which is tentative, informal or incomplete,’ as well as from
any ‘fully consummated decisions, where they are but
steps towards final judgment in which they will merge.’”
Puerto Rico Aqueduct & Sewer Auth. v. Metcalf & Eddy,
Inc., 506 U.S. 139, 142, 113 S. Ct. 684, 121 L. Ed. 2d 605
(1993) (quoting Cohen v. Beneficial Indus. Loan Corp.,
337 U.S. 541, 546, 69 S. Ct. 1221, 93 L. Ed. 1528 (1949)). A
transfer order is not a final judgment. It “is interlocutory
and thus not immediately appealable, but appealable only
incident to a final judgment in a case (or a partial judgment
pursuant to Fed. R. Civ. P. 54(b)) or as a certified question
pursuant to 28 U.S.C. § 1292(b).” FDIC v. Maco Bancorp,
Inc., 125 F.3d 1446, 1447 (Fed. Cir. 1997).
The collateral order doctrine provides a “narrow
exception” to the final judgment rule. Amgen Inc. v.
Hospira, Inc., 866 F.3d 1355, 1358-59 (Fed. Cir. 2017). An
order that is not final will be immediately appealable under
this doctrine if it “fall[s] in that small class which finally
determine[s] claims of right separable from, and collateral
to, rights asserted in the action, too important to be denied
review and too independent of the cause itself to require
that appellate consideration be deferred until the whole
case is adjudicated.” Puerto Rico, 506 U.S. at 143 (quoting
Cohen, 337 U.S. at 546). “To come within the ‘small class’
of . . . [collateral order doctrine decisions], the order
must [1] conclusively determine the disputed question, [2]
resolve an important issue completely separate from the

7a
Appendix A
merits of the action, and [3] be effectively unreviewable
on appeal from a final judgment.” Id. at 144-45 (quoting
Coopers & Lybrand v. Livesay, 437 U.S. 463, 468, 98 S.
Ct. 2454, 57 L. Ed. 2d 351 (1978)); see also Cohen, 337
U.S. at 546.
The Supreme Court has held that States and State
entities may invoke the collateral order doctrine to
immediately appeal an order denying a claim of sovereign
immunity. In Puerto Rico, the Puerto Rico Aqueduct and
Sewer Authority (PRASA)—an arm of the Puerto Rican
government—sought to upgrade Puerto Rico’s waste
treatment plants and contracted with Metcalf & Eddy Inc.
to assist with the task. 506 U.S. at 141. PRASA withheld
payments on the contract due to alleged overcharging
by Metcalf, and Metcalf sued PRASA in the District of
Puerto Rico for breach of contract in response. Id. PRASA
then moved to dismiss the case on grounds that sovereign
immunity under the Eleventh Amendment prohibited the
suit. Id. The district court denied the motion, PRASA
appealed, and the First Circuit dismissed the appeal
for lack of jurisdiction. Id. at 141-42. The First Circuit
explained that its precedent barred States from taking
an immediate appeal on a claim of sovereign immunity.
Id. at 142.
The Supreme Court reversed. It determined that
decisions denying claims of sovereign immunity by a State
or its arms fall within the “small class” of decisions covered
by the collateral order doctrine. Id. at 144-45. The Court
explained that such decisions satisfy the three elements of
the doctrine as set forth in Cohen and Coopers & Lybrand.

8a
Appendix A
Id. It emphasized that the Eleventh Amendment confers
on States the privilege not to be sued, and that decisions
denying sovereign immunity “purport to be conclusive
determinations that [States] have no right not to be sued
in federal court.” Id. at 145. The Court noted that resolving
the issue of sovereign immunity “generally will have no
bearing on the merits of the underlying action,” and that
the value of sovereign immunity to a State “is for the most
part lost once litigation proceeds past motion practice.” Id.
Accordingly, the Court held that “States and state entities
that claim to be ‘arms of the State’ may take advantage
of the collateral order doctrine to appeal a district court
order denying a claim of Eleventh Amendment immunity.”
Id. at 147; see also Univ. of Minn. v. LSI Corp., 926 F.3d
1327, 1331 n.2 (Fed. Cir. 2019) (“It is well-established that
decisions denying sovereign immunity are appealable as
collateral orders, and the ‘ultimate justification is the
importance of ensuring that the States’ dignitary interests
can be fully vindicated.’” (quoting Puerto Rico, 506 U.S.
at 146-47)).
Here, UT challenges the district court’s transfer
order on several grounds. It argues that the U.S.
Constitution’s Original Jurisdiction Clause ensures that a
State cannot be forced to sue in a court located in another
State. See Appellant’s Br. 11-17. UT also argues that the
Eleventh Amendment confirms that a State is entitled
to control where it litigates against a private party. See
id. at 18-21. Finally, it asserts that it did not consent to
jurisdiction or waive its sovereignty rights in Delaware,
and that the patent venue statute does not abrogate those
rights. See id. at 26-36. UT generally invokes its rights as

9a
Appendix A
a state sovereign to challenge the district court’s transfer
order—an order denying the application of the Eleventh
Amendment. See Order at 3. We thus hold that, based on
the Supreme Court’s reasoning and analysis in Puerto
Rico, the collateral order doctrine likewise applies here.
As in Puerto Rico, the district court’s order satisfies
all three elements of the collateral order doctrine. See
506 U.S. at 144-45. The first element is met because the
order “conclusively determine[d]” that State sovereignty
principles do not apply. Id. at 144. There is nothing
“tentative, informal or incomplete” about the transfer
order regarding this issue. Cohen, 337 U.S. at 546. As
soon as the case proceeds in Delaware, UT is subject to
suit there, and the issue of whether state sovereignty
principles apply is conclusively determined in the negative.
Contrary to BSC’s argument, UT cannot simply “raise its
sovereignty arguments in a ‘different room,’” because UT’s
asserted right to not litigate in Delaware is immediately
lost upon transfer. Appellee’s Br. 9 (quoting Carefirst of
Md., Inc. v. Carefirst Urgent Care Ctr., LLC, 305 F.3d 253,
255 (4th Cir. 2002)).
During oral argument, BSC conceded that, had UT
unsuccessfully moved in the District of Delaware to
retransfer the case back to Texas, then the issue would be
conclusively determined and the collateral order doctrine
would apply. Oral Arg. at 23:08, http://oralarguments.
cafc.uscourts.gov/default.aspx?fl=2018-1700.mp3. That
UT could have filed a motion to retransfer in Delaware
does not alter our determination that the first element
is satisfied. The Texas court already concluded that (1)

10a
Appendix A
venue is improper in the Western District of Texas; and
(2) venue is proper in the District of Delaware. As the
Supreme Court has explained, these conclusions are law
of the case:
Federal courts routinely apply law-of-the-case
principles to transfer decisions of coordinate
courts . . . Indeed, the policies supporting
the doctrine apply with even greater force
to transfer decisions than to decisions of
substantive law; transferee courts that feel
entirely free to revisit transfer decisions of a
coordinate court threaten to send litigants into
a vicious circle of litigation.
Christianson v. Colt Indus. Operating Corp., 486 U.S.
800, 816, 108 S. Ct. 2166, 100 L. Ed. 2d 811 (1988). “A
court has the power to revisit prior decisions of its own
or of a coordinate court in any circumstance, although as
a rule courts should be loathe to do so in the absence of
extraordinary circumstances such as where the initial
decision was ‘clearly erroneous and would work a manifest
injustice.’” Id. at 817 (quoting Arizona v. California, 460
U.S. 605, 618 n.8, 103 S. Ct. 1382, 75 L. Ed. 2d 318 (1984)).
Thus, the District of Delaware can revisit the Texas
court’s venue determination only under extraordinary
circumstances, such as reaching a conclusion that the
Texas court’s decision was “clearly erroneous and would
work a manifest injustice.” Id. (quoting Arizona, 460 U.S.
at 618 n.8). In the absence of such a conclusion, however, the
law-of-the-case doctrine applies and the issue of whether
UT is subject to jurisdiction in Delaware is conclusively

11a
Appendix A
determined. We note that, in opposing appealability, BSC
does not waive the law-of-the-case protection it has against
the Delaware court drawing a different conclusion than
the one it urged the Texas court to make. BSC does not
argue that the Texas court’s decision is implausible or
clearly erroneous. Nor could it. After all, BSC’s position
is that, far from being clearly erroneous, the Texas court’s
decision is actually correct. We agree that the Texas
court’s ruling is not clearly erroneous or implausible and,
as such, we are satisfied that the Texas court’s transfer
decision is conclusive for purposes of the collateral order
doctrine.
The second element is also met because the state
sovereignty issues raised here are “important issue[s],”
the resolution of which are “completely separate from
the merits” of the patent infringement suit. Puerto Rico,
506 U.S. at 144. In Puerto Rico, the Supreme Court
explained that Eleventh Amendment immunity is “a
fundamental constitutional protection” and that “its
ultimate justification is the importance of ensuring that
the States’ dignitary interests can be fully vindicated.”
Id. at 145-46. The Court noted that the purpose of the
Eleventh Amendment is to “prevent the indignity of
subjecting a State to the coercive process of judicial
tribunals at the instance of private parties,” and that
the Amendment “is rooted in a recognition that the
States, although a union, maintain certain attributes
of sovereignty, including sovereign immunity.” Id. at
146. The state sovereignty principles claimed here are
similar to the claims of Eleventh Amendment immunity in
Puerto Rico because, in both instances, the claim invokes

12a
Appendix A
sovereignty to protect a State’s dignitary interest in not
litigating under conditions to which it did not agree. We
thus determine that resolving whether those principles
apply here is also an “important issue.” Id. at 144. And
because resolution of this issue is “completely separate
from the merits of” a patent infringement suit, the second
element of the collateral order doctrine is satisfied. See
id. Our determination here turns on UT’s assertion of
state sovereignty, and we recognize that transfer orders
normally would not satisfy this element. See Appellee’s
Br. 10-11.
Finally, the third element of the collateral order
doctrine is satisfied because the district court’s order,
which determined that Eleventh Amendment principles
do not apply, is “effectively unreviewable on appeal from
a final judgment.” See Puerto Rico, 506 U.S. at 144-45.
On appeal, UT asserts its rights as a sovereign entity to
choose its forum and not litigate its case in Delaware.
If the case proceeds to final judgment, an appeal of
UT’s claims of state sovereignty would be effectively
pointless as UT would have been litigating in Delaware
the entire time. Like the scenario in Puerto Rico, the
value of UT’s asserted rights “is for the most part lost
as litigation proceeds past motion practice.” Id. at 145;
see also Firestone, 449 U.S. at 376-77 (explaining that
the challenged order must constitute a final rejection “of
a claimed right where denial of immediate review would
render impossible any review whatsoever” (quoting United
States v. Ryan, 402 U.S. 530, 533, 91 S. Ct. 1580, 29 L.
Ed. 2d 85 (1971))).

13a
Appendix A
We acknowledge that Puerto Rico differs because
there the State entity stood as a defendant whereas here,
UT stands as a plaintiff. The Supreme Court’s decision in
Puerto Rico turned on its recognition that the Eleventh
Amendment confers on a State or state entity the right to
not defend a suit, and that this important right is lost if the
State’s claim to sovereign immunity is denied. See 506 U.S.
at 144-45. Here, in contrast, UT relies not on sovereign
immunity under the Eleventh Amendment so much as on
related principles that it labels as state sovereignty. We
nonetheless conclude that Puerto Rico’s teachings apply
here. As we explained above, UT’s assertion of state
sovereignty principles is similar to a claim of Eleventh
Amendment immunity because both arguments invoke
attributes of state sovereignty to preclude a suit from
going forward. Even if we were to ultimately conclude
that plaintiffs cannot assert state sovereignty to defeat a
venue transfer, that determination goes to the merits of
the state sovereignty issue in this case and cannot be the
basis for denying jurisdiction.
Given the similarities between this case and Puerto
Rico, we conclude that we have jurisdiction because the
district court’s transfer order fits within the small class
of judgments excepted from the final judgment rule by
the collateral order doctrine.
II
Turning to the merits, UT seeks reversal of the
district court’s transfer order on several grounds relating
to state sovereignty. It argues that venue is proper in the

14a
Appendix A
Western District of Texas because a State, as a sovereign
entity, has the right to sue a nonresident in its forum
of choice as long as personal jurisdiction is satisfied.
According to UT, the federal patent venue statute
cannot abrogate a State’s right to choose the forum when
asserting infringement of its federal patent rights. UT
also argues that the District of Delaware lacks jurisdiction
because UT never consented to suit in Delaware, never
waived its sovereignty in Delaware, and never had its
sovereignty abrogated by statute. We disagree with UT on
all grounds. We hold that the state sovereignty principles
asserted by UT do not grant it the right to bring a patent
infringement suit in an improper venue. Accordingly, the
district court did not err in transferring the case to the
District of Delaware.
A. Standard of Review
The patent venue statute, 28 U.S.C. § 1400(b), “is
the sole and exclusive provision controlling venue in
patent infringement actions.” TC Heartland, 137 S.Ct.
at 1519 (quoting Fourco Glass Co. v. Transmirra Prods.
Corp., 353 U.S. 222, 229, 77 S. Ct. 787, 1 L. Ed. 2d 786
(1957)). Venue is proper under § 1400(b) only where a
defendant resides or “has a regular and established place
of business.” 28 U.S.C. § 1400(b). “We review de novo
the question of proper venue under 28 U.S.C. § 1400(b).”
Westech Aerosol Corp. v. 3M Co., 927 F.3d 1378, 1381
(Fed. Cir. 2019).
We apply Federal Circuit law to the questions of state
sovereignty raised here, just as we have applied our own

15a
Appendix A
law to questions of sovereign immunity. See Delano Farms
Co. v. Cali. Table Grape Comm’n, 655 F.3d 1337, 1343 (Fed.
Cir. 2011) (“In addressing the issue of sovereign immunity,
we apply our own law in light of the special importance of
ensuring national uniformity on such questions.”); see also
Univ. of Utah v. Max-Planck-Gesellschaft zur Forderung
der Wissenschaften E.V., 734 F.3d 1315, 1320 (Fed. Cir.
2013) (“We have held that the question of Eleventh
Amendment waiver is a matter of Federal Circuit law.”).
We review these questions de novo. See Univ. of Utah, 734
F.3d at 1320 (“We review the district court’s decision on
Eleventh Amendment immunity de novo.” (quoting A123
Sys., Inc. v. Hydro-Quebec, 626 F.3d 1213, 1219 (Fed. Cir.
2010))).
B. Venue in the Western District of Texas
The district court determined that BSC neither
resides in nor has a regular and established place of
business in the Western District of Texas under § 1400(b).
Order at 2-3. UT does not appeal these determinations.
It challenges the transfer order only on the basis of state
sovereignty. There is no dispute that UT is an arm of
the State of Texas and is entitled to the same sovereign
rights as Texas. See Tegic Commc’ns Corp. v. Bd. of
Regents of Univ. of Tex. Sys., 458 F.3d 1335, 1340 (Fed.
Cir. 2006) (“The University of Texas System is deemed
to be an arm of the State of Texas, see Tex. Gov’t Code
§ 441.101(3), . . . ”).
UT argues that a State has the right to sue a private
party in any forum as long as personal jurisdiction

16a
Appendix A
requirements are met. See Appellant’s Br. 11-20. UT
asserts that this right “is an essential privilege of state
sovereignty,” and is established by several authorities
including “the language and history of the Original
Jurisdiction Clause and Eleventh Amendment,” and
Supreme Court precedents. Id. at 19. We disagree with
UT. First of all, State sovereign immunity does not
apply where a State acts solely as a plaintiff, as UT does
here. We also discern nothing in the U.S. Constitution’s
Original Jurisdiction Clause or in UT’s other asserted
authorities that supports the proposition that a State has
the right to bypass federal venue rules when it engages
in patent litigation as a plaintiff. We thus conclude that
UT does not have the right to bring a patent infringement
suit against BSC in the Western District of Texas, an
improper venue. We address UT’s sovereign immunity,
original jurisdiction, and state sovereignty arguments in
detail below.
1. State Sovereign Immunity
We first address the doctrine of state sovereign
immunity, “sometimes referred to” as “Eleventh
Amendment immunity.” See Alden v. Maine, 527 U.S. 706,
713, 119 S. Ct. 2240, 144 L. Ed. 2d 636 (1999). The Eleventh
Amendment immunizes the States from suits “commenced
or prosecuted against one of the United States by Citizens
of another State, or by Citizens or Subjects of any Foreign
State.” U.S. Const. amend. XI. In its opening appellate
brief, UT asserted that the Eleventh Amendment allows a
State “to control where it litigates against a private party.”
Appellant’s Br. 18 (capitalization altered). According to

17a
Appendix A
UT, state sovereign immunity provides that “only the
state can dictate where it litigates its property rights; a
private party cannot dictate the forum.”1 Id.
We have previously held, however, that “the Eleventh
Amendment applies to suits ‘against’ a state, not suits
by a state.” Eli Lilly, 119 F.3d at 1564. In Eli Lilly, the
Regents of the University of California (UC)—an arm of
the State of California—sued Eli Lilly & Co. for patent
infringement in the Northern District of California. Id.
at 1562. The Judicial Panel on Multidistrict Litigation
consolidated the case with five other related cases for
pretrial proceedings in the Southern District of Indiana.
Id. at 1563. UC then filed a petition for a writ of mandamus
to this court, seeking to vacate the transfer order as
barred by the Eleventh Amendment. Id. We denied
UC’s petition, holding that “the transfer did not force
unconsented suit upon UC and thus was permissible for
purposes of pretrial discovery.” Id. Lilly subsequently
filed a motion to have the case transferred under 28 U.S.C.
§ 1404(a) to the Southern District of Indiana for trial. Id.
The District Court for the Southern District of Indiana
granted the motion, transferred the case to itself, and a
trial proceeded on the merits. Id. The district court ruled
1. While UT expressly relied on sovereign immunity in district
court and in its opening appellate brief, it appears to have shifted
course during the appeal. Indeed, in its reply, UT asserted that
“this case is not about Eleventh Amendment immunity.” Reply Br.
5 (capitalization altered). Likewise, during oral argument, UT’s
counsel stated that “[t]his is not an Eleventh Amendment case.”
Oral Arg. at 6:57. We nonetheless address this argument since it
was presented to the district court and raised here.

18a
Appendix A
in favor of Lilly on infringement and validity, and UC
appealed to this court. Id. at 1564.
UC argued on appeal that Eleventh Amendment
immunity deprived the Southern District of Indiana of
jurisdiction. Specifically, UC asserted that by choosing
to bring suit in the Northern District of California,
it waived its Eleventh Amendment immunity only in
California federal courts. Id. We explained that Eleventh
Amendment immunity applies only in situations where a
State is a defendant. See id. at 1564-65. We determined
that UC’s reliance on Port Authority Trans-Hudson
Corp. v. Feeney, 495 U.S. 299, 110 S. Ct. 1868, 109 L.
Ed. 2d 264 (1990), was misplaced because the Court in
that case “did not construe the Eleventh Amendment to
apply to suits in which a state is solely a plaintiff,” and
noted that “we do not believe that the Court has ever so
construed the Eleventh Amendment.” Eli Lilly, 119 F.3d
at 1564. Because UC was acting solely as the plaintiff,
we explained that “we need not determine whether UC
waived its immunity only in California, because this case
does not create an Eleventh Amendment jurisdictional
issue concerning which the question of waiver even
arises.” Id. at 1564-65. Recognizing that there were no
claims or counterclaims that placed UC in the position of
a defendant, we concluded that “the Eleventh Amendment
does not deprive the Indiana district court of jurisdiction
in this case.” Id. at 1565.
Our interpretation of the Eleventh Amendment in Eli
Lilly was guided by the Supreme Court’s reasoning in
United States v. Peters, 9 U.S. (5 Cranch) 115, 3 L. Ed. 53

19a
Appendix A
(1809) (Marshall, C.J.), a case where the Court declined to
apply the Eleventh Amendment in a suit instituted against
the heirs of a deceased State treasurer. See Eli Lilly, 119
F.3d at 1564. The Court in Peters instructed:
The right of a state to assert, as plaintiff, any
interest it may have in a subject, which forms
the matter of controversy between individuals,
in one of the courts of the United States, is not
affected by [the Eleventh] amendment; nor can
it be so construed as to oust the court of its
jurisdiction, should such claim be suggested.
The amendment simply provides, that no suit
shall be commenced or prosecuted against a
state. The state cannot be made a defendant to
a suit brought by an individual; but it remains
the duty of the courts of the United States to
decide all cases brought before them by citizens
of one state against citizens of a different state,
where a state is not necessarily a defendant.
Peters, 9 U.S. at 139 (emphases added). This is consistent
with other guidance from the Supreme Court. “[W]here a
state voluntarily become[s] a party to a cause, and submits
its rights for judicial determination, it will be bound
thereby, and cannot escape the result of its own voluntary
act by invoking the prohibitions of the 11th Amendment.”
Gunter v. Atl. Coast Line R.R. Co., 200 U.S. 273, 284, 26
S. Ct. 252, 50 L. Ed. 477 (1906). Moreover,
[i]t would seem anomalous or inconsistent for
a State both (1) to invoke federal jurisdiction,

20a
Appendix A
thereby contending that the “Judicial power
of the United States” extends to the case at
hand, and (2) to claim Eleventh Amendment
immunity, thereby denying that the “Judicial
power of the United States” extends to the
case at hand.
Lapides v. Bd. of Regents of Univ. Sys. of Ga., 535 U.S.
613, 619, 122 S. Ct. 1640, 152 L. Ed. 2d 806 (2002).
Our decision in Eli Lilly controls here. Similar to
UC in Eli Lilly, UT here invokes sovereign immunity to
challenge the transfer to the District of Delaware. See
Appellant’s Br. 18-20. Because UT is acting solely as a
plaintiff, however, sovereign immunity does not apply,
and UT cannot rely on it to challenge the transfer. See
Eli Lilly, 119 F.3d at 1564-65. We thus hold that sovereign
immunity cannot be asserted to challenge a venue transfer
in a patent infringement case where a State acts solely
as a plaintiff.
UT nonetheless arg ues that “State sovereign
i m mu n ity— a complement a r y att r ibut e of st at e
sovereignty—confirms that only the state can dictate
where it litigates its property rights.” Appellant’s Br. 18.
For support, it quotes Ex parte Ayers, 123 U.S. 443, 505,
8 S. Ct. 164, 31 L. Ed. 216 (1887), for the proposition that
“[t]he very object and purpose of the eleventh amendment
[serves] to prevent the indignity of subjecting a state to
the coercive process of judicial tribunals at the instance
of private parties.” Appellant’s Br. 18-19. UT also quotes
Pennhurst State School & Hospital v. Halderman, 465

21a
Appendix A
U.S. 89, 99, 104 S. Ct. 900, 79 L. Ed. 2d 67 (1984), for
the proposition that a “State’s constitutional interest
in immunity encompasses not merely whether it may
be sued, but where it may be sued.” Appellant’s Br. 19.
Finally, UT relies on Feeney, where the Supreme Court
“reiterated that a state may control the venue in which it
litigates, holding that ‘issues of venue are closely related
to those concerning sovereign immunity.’” Appellant’s Br.
19 (quoting Feeney, 495 U.S. at 307). While UT accurately
quotes these cases, we disagree with UT’s reliance on them.
Ayers, Pennhurst, and Feeney are all distinguishable as
none involved the assertion of sovereign immunity by a
State as a plaintiff. We are aware of no cases in which
the Supreme Court has applied the Eleventh Amendment
to suits in which a State is solely a plaintiff. Our reading
of Ayers, Pennhurst, and Feeney here is consistent with
Eli Lilly, where we previously distinguished Feeney,
emphasizing that “the Court did not construe the Eleventh
Amendment to apply to suits in which a state is solely a
plaintiff.” Eli Lilly, 119 F.3d at 1564.
2. The Original Jurisdiction Clause
UT next argues that “the Original Jurisdiction Clause
ensures a State cannot be forced to sue in a court located in
another State.” 2 Appellant’s Br. 11 (capitalization altered).
2. We note that UT did not present its original jurisdiction
argument to the district court. We exercise our discretion and reach
UT’s argument rather than finding that UT waived this issue by
failing to present it below. See e.g., In re DBC, 545 F.3d 1373, 137879 (Fed. Cir. 2008) (noting “discretion to reach issues raised for the
first time on appeal”).

22a
Appendix A
The U.S. Constitution grants the Supreme Court original
jurisdiction over cases “in which a State shall be a Party.”
U.S. Const. art. III, § 2, cl. 2. This grant is codified at 28
U.S.C. § 1251(b)(3), which provides: “The Supreme Court
shall have original but not exclusive jurisdiction of . . . All
actions or proceedings by a State against the citizens of
another State or against aliens.” UT argues that certain
Supreme Court decisions on original jurisdiction—namely
Ames v. Kansas, 111 U.S. 449, 4 S. Ct. 437, 28 L. Ed.
482 (1884), Georgia v. Pennsylvania Railroad Co., 324
U.S. 439, 65 S. Ct. 716, 89 L. Ed. 1051 (1945), and Ohio v.
Wyandotte Chemicals Corp., 401 U.S. 493, 91 S. Ct. 1005,
28 L. Ed. 2d 256 (1971)—establish that a State has the
“right to control the forum with requisite jurisdiction in
which it sues a citizen of another state.” Appellant’s Br.
12-17. In so arguing, UT asserts not only that (a) it has a
Constitution-rooted right to avoid out-of-state venues, but
also that (b) it has an affirmative right to sue in a federal
district court that Congress has deemed unavailable. We
disagree with UT’s generous reading of these cases and
address each case in turn below.
UT cites Ames for its statements that States “were
left free to seek redress for their own grievances in any
court that had requisite jurisdiction” and “no limits were
set on their powers of choice in this particular.” See id. at
13 (emphasis omitted) (citing Ames, 111 U.S. at 465). But
these statements must be read in context. In Ames, the
State of Kansas filed suit in its own courts to challenge
a corporate consolidation by a national railway company.
See Ames, 111 U.S. at 452-53. The defendants removed
to federal court on grounds that the case presented a

23a
Appendix A
federal question, and Kansas challenged the removal.
Id. at 465. Kansas argued that the federal district court
lacked jurisdiction due to the Original Jurisdiction Clause,
which gives the Supreme Court “original Jurisdiction”
in “all Cases . . . in which a State shall be Party.” U.S.
Const. art. III, § 2, cl. 2. The Supreme Court disagreed
and held that where a State brings suit against private
parties, the original jurisdiction of the Supreme Court
is not exclusive, and those suits “may now be brought in
or removed to” the lower federal courts. Ames, 111 U.S.
at 470. Ames thus stands for the proposition that lower
federal courts can exercise jurisdiction over suits filed by
a State against a non-State.
In so holding, the Supreme Court explained that one
of the practical effects of original jurisdiction was “to
allow the state to sue for itself in any tribunal that could
entertain its case.” Id. at 465. The Court here refers to the
ability of States to sue in lower courts in addition to the
Supreme Court. These passages do not, as UT asserts,
support the proposition that States may sue in any forum
regardless of venue rules.
Georgia also does not support UT’s argument. In
Georgia, the State of Georgia filed a bill of complaint in the
Supreme Court, alleging that several railway companies
had committed antitrust violations. 324 U.S. at 443. The
defendants argued that the Supreme Court should decline
to exercise original jurisdiction over the case because the
action could have “conveniently proceed[ed] in the district
court of the proper venue.” Id. at 465. The Court exercised
original jurisdiction anyway, noting that “it is apparent
[from the complaint] that Georgia could not find all of the

24a
Appendix A
defendants in one of the judicial districts of Georgia so as
to maintain a suit of this character against all of them in
a district court in Georgia.” Id. at 466. While the Court
did allow Georgia to proceed in its chosen forum—the
Supreme Court—this case also does not support the
proposition that a State has a right to proceed in any
forum regardless of venue rules.
In Wyandotte, the State of Ohio attempted to invoke
original jurisdiction in a suit against a Michigan chemical
company. 401 U.S. at 494. The Supreme Court declined
jurisdiction, noting that the issues raised were “bottomed
on local law,” that multiple regulatory bodies were already
involved, and that the case presented technical and factual
questions in which the Court had no expertise. Id. at 497,
502, 505. UT argues that Wyandotte supports a State’s
right to litigate in its forum of choice regardless of federal
venue rules because the Court broadly stated that “no
State should be compelled to resort to the tribunals of
other States for redress.” Appellant’s Br. 17 (quoting
Wyandotte, 401 U.S. at 500). But, again, the Court’s
statement must be read in the context of the dispute
litigated. In Wyandotte, the Court was merely discussing
the principles underlying original jurisdiction and did not
even consider whether original jurisdiction confers on
States the right to bring suit in an improper venue. See
401 U.S. at 500.
The original jurisdiction cases cited by UT do not
support the proposition that a State can bring suit in any
forum as long as personal jurisdiction requirements are
met. These cases are further inapposite because UT never

25a
Appendix A
even sought to invoke original jurisdiction. It brought this
suit “pursuant to 28 U.S.C. §§ 1331 and 1338(a).” Compl.
¶ 5. Whether UT could have instituted this suit as an
original proceeding in the Supreme Court is irrelevant
because UT brought suit in a federal district court under
federal question jurisdiction.
3. State Sovereignty
Finally, UT asserts that it has the right to sue for
patent infringement in its forum of choice based on
the inherent powers of a state sovereign. For example,
it argues that each State has “residual and inviolable
sovereignty,” and retained the right “as a sovereign, to
choose the forum with requisite jurisdiction in which to
enforce its property rights against citizens of another
state.” Appellant’s Br. 10-11. It further asserts that
States, although a union, maintain attributes of
sovereignty, including the (1) right to consent
to or reject jurisdiction (the right to choose
where it litigates its rights against a citizen); (2)
immunity, e.g., under the Eleventh Amendment
or state tort claim acts;[] (3) eminent domain
power; (4) power to try causes in its own courts;
(5) power to tax; and (6) police power, among
other attributes of sovereignty.
Reply Br. 5.
We acknowledge that States are sovereign entities
that entered the Union with particular sovereign rights

26a
Appendix A
intact. See Appellant’s Br. 9-11; see also Reply Br. 5-6.
We are not convinced, however, that the inherent powers
of Texas as a sovereign allow UT to disregard the rules
governing venue in patent infringement suits once it chose
to file such a suit in federal court.
When a State voluntarily appears in federal court,
as UT has done here, it “voluntarily invoke[s] the federal
court’s jurisdiction.” Lapides, 535 U.S. at 620. It logically
follows that the State must then abide by federal rules
and procedures—including venue rules—like any other
plaintiff. We see nothing in UT’s cited authorities that
suggests otherwise. Indeed, it would be “anomalous or
inconsistent” for UT to both invoke federal question
jurisdiction and then to assert sovereignty to defeat
federal jurisdiction. See id. at 619.
Our conclusion here is consistent with sovereign
immunity decisions in the removal context from the
Supreme Court and from our sister circuits. See, e.g.,
id. at 620 (noting that the State of Georgia “voluntarily
invoked the federal court’s jurisdiction” by voluntarily
agreeing to remove the case to federal court); In re Methyl
Tertiary Butyl Ether (“MTBE”) Prods. Liab. Litig., 488
F.3d 112, 119 (2d Cir. 2007) (“The removal of the cases
here was the result of the voluntary acts of California
and New Hampshire in commencing the lawsuits against
the defendants. Once having done so, these states
subjected themselves to all of the rules and consequences
attendant to that decision.”); In re Creative Goldsmiths
of Washington, D.C., Inc., 119 F.3d 1140, 1148 (4th Cir.
1997) (“When a state authorizes its officials voluntarily

27a
Appendix A
to invoke federal process in a federal forum, the state
thereby consents to the federal forum’s rules of procedure
and may not invoke sovereign immunity to protect itself
against the interposition of defenses to its action.”).
When a State sues in federal court, it waives sovereign
immunity with respect to its asserted claims, subjecting
itself to the jurisdiction of the federal courts, and must
accept the federal statutory provisions that govern the
allocation of cases among the courts. The Supreme Court
has explained that Congress’s power to establish lower
federal courts under Article III is not restricted. “The
discretion, therefore, of Congress as to the number, the
character, the territorial limits of the courts among which
it shall distribute this judicial power, is unrestricted
except as to the Supreme Court.” United States v. Union
Pac. R.R. Co., 98 U.S. 569, 602, 25 L. Ed. 143 (1878).
Congress thus has the power to establish as many—
or as few—federal district courts as it wishes, and to
authorize nationwide assertion of jurisdiction by those
courts. See, e.g., Robertson v. R.R. Labor Bd., 268 U.S.
619, 622, 45 S. Ct. 621, 69 L. Ed. 1119 (1925) (“Congress
clearly has the power to authorize a suit under a federal
law to be brought in any inferior federal court. Congress
has power, likewise, to provide that the process of every
District Court shall run into every part of the United
States.”); Union Pac., 98 U.S. at 604 (“There is, therefore,
nothing in the Constitution which forbids Congress to
enact that, as to a class of cases or a case of special
character, a circuit court—any circuit court—in which the
suit may be brought, shall, by process served anywhere

28a
Appendix A
in the United States, have the power to bring before it all
the parties necessary to its decision.”); Henry M. Hart,
Jr., The Power of Congress to Limit the Jurisdiction of
Federal Courts: An Exercise in Dialectic, 66 Harv. L.
Rev. 1362, 1365 (1953) (“Q. [] [D]oes the Constitution give
people any right to proceed or be proceeded against in one
inferior federal constitutional court rather than another?
A. As to civil plaintiffs, no. Congress has plenary power
to distribute jurisdiction among such inferior federal
constitutional courts as it chooses to establish.”).3 It follows
that Congress has the power to allocate cases, including
patent cases, among the federal district courts and UT,
having waived its sovereign immunity, cannot escape
Congress’s statutory provisions governing patent cases.
C. Jurisdiction in the District of Delaware
3. See also Toland v. Sprague, 37 U.S. 300, 328, 9 L. Ed. 1093
(1838) (“Congress might have authorized civil process from any
circuit court, to have run into any state of the Union.”); Martin v.
Hunter’s Lessee, 14 U.S. 304, 331, 4 L. Ed. 97 (1816) (“[Congress]
might establish one or more inferior courts; they might parcel out
the jurisdiction among such courts, from time to time, at their own
pleasure.”); Robert Haskell Abrams, Power, Convenience, and the
Elimination of Personal Jurisdiction in the Federal Courts, 58
Ind. L.J. 1, 1 (1983) (“Had Congress in the exercise of its article
III powers to establish ‘inferior courts’[] chosen to establish only
one such tribunal, there would be little doubt of the constitutional
permissibility of such a choice.”); Jonathan Remy Nash, National
Personal Jurisdiction, 68 Emory L.J. 511, 524 (2019) (commenting
that, if the Supreme Court’s explanation in Union Pacific is
true, “then Congress could establish federal trial courts whose
jurisdictional reach extends across state lines; indeed, it could even
set up a single federal trial court with national jurisdiction.”).

29a
Appendix A
Finally, UT argues that the District of Delaware lacks
jurisdiction over this case because it did not consent to suit
in Delaware, did not waive its sovereignty in Delaware,
and never had its sovereignty abrogated by statute. See
Appellant’s Br. 26-32. Citing College Savings Bank v.
Florida Prepaid Postsecondary Education Expense
Board, 527 U.S. 666, 119 S. Ct. 2219, 144 L. Ed. 2d 605
(1999), UT asserts that waiver of sovereignty must be
unequivocal and voluntary. See Appellant’s Br. 26-29.
In that case, College Savings Bank sued the State of
Florida under the Lanham Act, alleging that Florida
misrepresented its tuition prepayment program. See
College Savings, 527 U.S. at 671. College Savings Bank
argued that Florida waived its sovereign immunity by
engaging in interstate marketing of its program. See id.
The Supreme Court disagreed and held that Florida’s
sovereign immunity was not “voluntarily waived by the
State’s activities in interstate commerce.” Id. at 691.
UT’s reliance on College Savings is misplaced. As
we explained above, sovereign immunity does not apply
when a State proceeds as a plaintiff. Moreover, none of
the authorities cited by UT support a broader privilege
of state sovereignty that gives a State the right to bring
suit in an improper venue. The issues of waiver and
abrogation of such rights thus do not arise, because there
is no sovereign immunity or relevant state sovereign right
to waive or abrogate. See Eli Lilly, 119 F.3d at 1564-65.
UT also argues that waiver of its sovereign immunity
is “forum and claim specific,” and that it did not waive
sovereignty in Delaware by filing suit in Texas. Appellant’s

30a
Appendix A
Br. 29-30 (capitalization altered). We rejected the same
argument in Eli Lilly, because sovereign immunity does
not apply to “suits by a state.” 119 F.3d at 1564. The cases
UT cites as support are inapposite. UT cites to Tegic and
Hydro-Quebec, to argue that “waiver of state sovereignty
is limited to the state’s chosen forum.” Appellant’s Br.
29. In both Tegic and Hydro-Quebec, we held that a state
plaintiff that files a patent infringement suit in one case,
does not waive its sovereign immunity in an entirely
different case. See Tegic, 458 F.3d at 1343 (“Although
here the University obviously ‘made itself a party to
the litigation to the full extent required for its complete
determination, . . . it did not thereby voluntarily submit
itself to a new action brought by a different party in a
different state and a different district court.” (quoting
Clark v. Barnard, 108 U.S. 436, 448, 2 S. Ct. 878, 27 L.
Ed. 780 (1883))); see also Hydro-Quebec, 626 F.3d at 1220
(“UT’s waiver of Eleventh Amendment immunity in a
patent infringement suit in the Northern District of Texas
did not result in a waiver of immunity in this separate
infringement action.”). There is no second infringement
suit here, so these cases do not apply.
Additionally, UT states that “to rule against the State
of Texas, you would have to find that a venue provision is
[a] substantive jurisdictional right to defendants to only
be sued where they reside as opposed to where there is
jurisdiction over them.” Oral Arg. at 36:52. UT argues
that this would be contrary to Brunette Machine Works,
Ltd. v. Kockum Industries, Inc., 406 U.S. 706, 92 S.
Ct. 1936, 32 L. Ed. 2d 428 (1972). Oral Arg. at 37:10. In
Brunette, Kockum Industries, Inc. sued Brunette Machine

31a
Appendix A
Works—a Canadian corporation—for patent infringement
in the District of Oregon, which dismissed the suit for
improper venue under § 1400(b). Id. at 707. The Supreme
Court ruled that, even though venue was improper under
§ 1400(b), that provision does not apply to suits against an
alien defendant given the existence of 28 U.S.C. § 1391(d),
a venue statute applicable to foreign entities. Id. at 713-14.
The Court explained that “venue provisions are designed,
not to keep suits out of the federal courts, but merely
to allocate suits to the most appropriate or convenient
federal forum.” Id. at 710. The Court held that § 1391(d)
controlled and that Brunette, an alien defendant, “cannot
rely on § 1400” as a shield against suit in Oregon. Id. at
714. We do not find UT’s reliance on Brunette persuasive
because, unlike in Brunette, there is no authority asserted
here that overrides the patent venue statute.
Because sovereign immunity does not apply to a
State acting solely as a plaintiff, the issues of waiver and
abrogation do not arise here. Accordingly, jurisdiction in
the District of Delaware is proper.
Conclusion
We have considered UT’s remaining arguments and
find them unpersuasive. UT’s sovereign rights do not allow
it to escape application of the patent venue statute in this
case. We affirm the district court’s transfer order.
AFFIRMED

32a
B the united
Appendix b —Appendix
order of
states district court for the western
district of texas, austin division,
filed march 12, 2018
IN THE United States District Court
for the Western District of Texas
Austin Division
CAUSE NO. A-17-CV-1103-LY
BOARD OF REGENTS, THE UNIVERSITY OF
TEXAS SYSTEM, AND TISSUEGEN, INC.,
Plaintiffs,
v.
BOSTON SCIENTIFIC CORP.,
Defendant.
March 12, 2018, Decided
March 12, 2018, Filed
ORDER
Before the court are Defendant Boston Scientific
Corporation’s Motion to Dismiss Plaintiffs’ Complaint
under Fed. R. Civ. P. 12(b)(3) filed February 1, 2018 (Doc.
#11); Plaintiffs’ Response in Opposition to Motion to
Dismiss filed February 15, 2018 (Doc. #14); and Defendant
Boston Scientific Corporation’s Reply in Support of its

33a
Appendix B
Motion to Dismiss Plaintiffs’ Complaint under Fed. R. Civ.
P. 12(b)(3) filed February 22, 2018 (Doc. #16). Defendant
Boston Scientific Corporation (“Boston Scientific”)
alternatively seeks transfer pursuant to Section 1400(b)
of Title 28 of the United States Code. Having considered
the motion, response, and reply, the court will grant the
motion in the alternative and transfer the cause to the
United States District Court for the District of Delaware
for the reasons stated below.
Plaintiffs filed suit against Boston Scientific on
November 20, 2017, alleging infringement of United
States Patent Nos. 6,596,296 and 7,033,603 (“the asserted
patents”). Plaintiffs claim that Boston Scientific infringed
the asserted patents through the manufacture and sale of
a range of coronary stent systems. Plaintiffs’ complaint
states that Boston Scientific is incorporated in the State
of Delaware and headquartered in Boston, Massachusetts.
Boston Scientific does not own or lease any property
in the Western District of Texas and does not maintain
any business address in the Western District of Texas.
Boston Scientific has approximately 46 employees in the
Western District of Texas, all of whom maintain home
offices and do not work in locations that are owned, leased,
or otherwise controlled by Boston Scientific.
A defendant may request dismissal where venue is
improper in the District where the case is filed. See Fed.
R. Civ. P. 12(b)(3). The patent venue statute, 28 U.S.C.
§ 1400(b), is the “sole and exclusive provision controlling
venue in patent infringement actions.” TC Heartland LLC

34a
Appendix B
v. Kraft Foods Group Brands LLC, ___ U.S. ___, 137 S.
Ct. 1514, 1515-19, 197 L. Ed. 2d 816 (2017).
“Any civil action for patent infringement may be
brought in the judicial district where the defendant
resides, or where the defendant has committed acts of
infringement and has a regular and established place
of business.” 28 U.S.C. § 1400(b). The term “resides”
refers only to a defendant’s state of incorporation. See TC
Heartland, 137 S. Ct. at 1519.
Whether a defendant has a “regular and established
place of business” has three general requirements: “(1)
there must be a physical place in the district; (2) it must be
a regular and established place of business; and (3) it must
be the place of the defendant.” In re Cray Inc., 871 F.3d
1355, 1360 (Fed. Cir. 2017). Although Boston Scientific has
46 employees working in the Western District of Texas,
they all work from home. Because Boston Scientific does
not own or lease a place of business in the Western District
of Texas and does not operate or otherwise control its
employees’ homes, the court finds that Boston Scientific
does not maintain a “regular and established place of
business” in the Western District of Texas. See id. at
1365 (finding venue improper in district where defendant’s
employees merely worked from home).
In response, Plaintiffs assert that “[b]ecause this
court has personal jurisdiction over Boston Scientific,
venue considerations related to convenience or other
factors cannot overcome The Board of Regents’ sovereign
right to control the forum for this dispute.” The court

35a
Appendix B
disagrees. Sovereign immunity is a shield; it is not meant
to be used as a sword. “The Eleventh Amendment applies
to suits ‘against’ a state, not suits by a state.” Regents of
the Univ. of California v. Eli Lilly & Co., 119 F.3d 1559,
1564-65 (Fed. Cir. 1997), cert. denied, 523 U.S. 1089, 118
S. Ct. 1548, 140 L. Ed. 2d 695 (1998).1 This case does not
create an Eleventh Amendment jurisdictional issue where
the question of sovereign immunity even arises. Plaintiffs
have asserted patent-infringement claims against Boston
Scientific. There is no claim or counterclaim against
The Board of Regents that places it in the position of a
defendant. See id. at 1565. “[W]here a state voluntarily
become [sic] a party to a cause, and submits its rights
for judicial determination, it would be bound thereby,
and cannot escape the result of its own voluntary act by
invoking the prohibitions of the 11th Amendment.” Gunter
v. Atlantic Coast Line R.R., 200 U.S. 273, 284, 26 S. Ct.
252, 50 L. Ed. 477 (1906) (citing Clark v. Barnard, 108
U.S. 436, 447, 2 S. Ct. 878, 27 L. Ed. 780 (1883)).
Section 1400(b) provides that venue is proper where
a corporation is incorporated. Boston Scientific is
incorporated in the District of Delaware. Venue is proper
in the District of Delaware. “Section 1406 of Title 28 is
addressed to a case in which venue has been laid in an
improper district. It authorizes either a dismissal on that
ground or, if the court finds that the interest of justice
would be served by a transfer, then a transfer instead.”
28 U.S.C. § 1406, Commentary on 1996 Amendment
1. In a patent suit, “the question of Eleventh Amendment
waiver is a matter of Federal Circuit law.” Regents of Univ. of N.M.
v. Knight, 321 F.3d 1111, 1124 (Fed. Cir. 2003).

36a
Appendix B
of Section 1406 (West 2006). “The decision whether a
transfer or dismissal is in the interest of justice rests
within the sound discretion of the district court.” Naartex
Consulting Corp. v. Watt, 722 F.2d 779, 789, 232 U.S. App.
D.C. 293 (D.C. Cir. 1983). Transfer is typically considered
more in the interest of justice than dismissal. Therefore,
IT IS ORDERED that Defendant Boston Scientific
Corporation’s Motion to Dismiss Plaintiffs’ Complaint
under Fed. R. Civ. P. 12(b)(3) filed February 1, 2018 (Doc.
#11) is GRANTED TO THE FOLLOWING EXTENT:
the above-styled cause of action is TRANSFERRED
to the United States District Court for the District of
Delaware.
SIGNED this 12th day of March, 2018.
/s/ Lee Yeakel		
LEE YEAKEL
UNITED STATES DISTRICT
JUDGE

37a
Appendix c —Appendix
DENIAL COF REHEARING
of the united states court of appeals
for the federal circuit,
filed november 8, 2019
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2018-1700
BOARD OF REGENTS OF THE UNIVERSITY OF
TEXAS SYSTEM, TISSUEGEN, INC.,
Plaintiffs-Appellants,
v.
BOSTON SCIENTIFIC CORPORATION,
Defendant-Appellee
Appeal from the United States District Court
for the Western District of Texas in
No. 1:17-cv-01103-LY, Judge Lee Yeakel
ON PETITION FOR REHEARING EN BANC
Before Prost, Chief Judge, Newman, Lourie, Dyk,
Moore, O’M alley, Reyna , Wallach, Taranto, Chen
Hughes, and Stoll, Circuit Judges.
Per Curiam.
ORDER
Appellant Board of Regents of the University of Texas
System filed a petition for rehearing en banc. The petition

38a
Appendix C
was first referred as a petition for rehearing to the panel
that heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges who
are in regular active service.
Upon consideration thereof,
It Is Ordered That
The Petition for panel rehearing is denied.
The Petition for rehearing en banc is denied.
The mandate of the court will issue on November 15,
2019
For the Court
November 8, 2019
Date		
/s/ Peter R. Marksteiner
				Peter R. Marksteiner
				Clerk of Court

